           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    UNDERPAYMENTS PAYABLE
    ON BEHALF OF TERMINATED
      TITLE II BENEFICIARIES

    June 2008    A-09-07-17160




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      June 9, 2008                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Underpayments Payable on Behalf of Terminated Title II Beneficiaries (A-09-07-17160)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration (SSA) had
           taken appropriate actions to pay underpayments on behalf of terminated beneficiaries.

           BACKGROUND
           A Title II underpayment is any monthly benefit amount due an entitled beneficiary that
           has not been paid. Underpayments usually result from (1) unpaid, accrued benefits
           for which no payment has been made or (2) unnegotiated checks representing correct
           payment to a deceased beneficiary. 1

           According to SSA policy, an underpayment due a living beneficiary will be paid to the
           beneficiary or representative payee. For terminated beneficiaries, the underpayment
           should be issued to the beneficiary’s or representative payee’s last address on
           record. 2 An underpayment due a deceased beneficiary is paid to the surviving spouse,
           surviving children, other family members, or legal representative of the estate. 3 Any
           underpayment not paid should be recorded on the Master Beneficiary Record (MBR). 4

           Underpayments may occur from a retroactive increase in benefits or the return
           of unnegotiated checks. SSA’s automated system generates an alert when
           underpayments are identified for terminated beneficiaries. For example, the Automatic
           Earnings Reappraisal Operation recalculates benefits and generates an alert when an

           1
               SSA, Program Operations Manual System (POMS), GN 02301.001.
           2
               SSA, POMS, GN 02301.020.2.
           3
               SSA, POMS, GN 02301.030.A.
           4
               SSA, POMS, GN 02301.060.B.2.
Page 2 - The Commissioner

action for a deceased beneficiary results in an underpayment. 5 The Returned Check
Action Program generates an alert when a check has been returned for underpayments
that may be due terminated beneficiaries. 6 SSA employees must take appropriate
manual actions to process these alerts to pay the underpayment.

We identified a population of about 682,000 beneficiaries who were terminated
between January 1984 and September 2006 with underpayments of $100 or more
on the MBR. These underpayments totaled $826 million. Of these, approximately
86,000 living beneficiaries (that is, individuals who previously received benefits and
were still alive) had underpayments totaling $123 million, and 596,000 deceased
beneficiaries had underpayments totaling $703 million (see Appendix A).

RESULTS OF REVIEW
We found that SSA needed to improve its controls and procedures to ensure
underpayments were appropriately paid on behalf of terminated beneficiaries. Based
on a random sample of 300 underpayments, we determined that SSA needed to
take corrective actions to (1) pay $177,184 in underpayments payable to 180 eligible
beneficiaries and individuals and (2) remove $44,214 in erroneous underpayments
from the MBR for 49 terminated beneficiaries. As a result, we estimate there are

•    $358.7 million in underpayments payable to 391,844 eligible beneficiaries and
     individuals, and

•    $86.7 million in erroneous underpayments on the MBR for 109,712 terminated
     beneficiaries (see Appendix B).

These payment errors occurred because SSA did not always locate beneficiaries or
eligible individuals, properly process underpayment alerts, retain documentation of
corrective actions taken, pay underpayments when updated information became
available, and ensure underpayments were valid before posting them to the MBR.

Specifically, we found that SSA did not take appropriate actions on 229 (76.3 percent)
of the 300 underpayments in our sample. This included 104 underpayments that
were not paid to eligible beneficiaries, 76 underpayments with insufficient evidence of
development, and 49 erroneous underpayments. SSA took appropriate actions on the
remaining 71 underpayments. Our sample results are summarized below.




5
    SSA, POMS, SM 04601.002 and SM 04605.070.
6
    SSA, POMS, SM 00624.005.
Page 3 - The Commissioner



        Underpayments Payable to Terminated Beneficiaries
                           Based on Random Sample of 300 Beneficiaries

    180 Underpayments                                                        49 Erroneous
     Payable to Eligible                                                    Underpayments
    Individuals (60.0%)                                                         (16.3%)




                                                                        71 Underpayments
                                                                        Where Appropriate
                                                                        Actions Were Taken
                                                                              (23.7%)




UNDERPAYMENTS PAYABLE

Our review disclosed that SSA did not pay $177,184 in underpayments payable to
180 eligible beneficiaries or other individuals who were entitled to the payments. This
consisted of

   $109,464 in underpayments payable to 104 beneficiaries and

   $67,720 in underpayments requiring SSA actions to locate eligible individuals for
    underpayments payable to 76 beneficiaries.

Underpayments Not Paid to Eligible Beneficiaries

We found that SSA did not pay underpayments to 104 beneficiaries who were identified
on the MBR. This occurred, in part, because SSA had not (1) released underpayments
to living beneficiaries and (2) notified surviving beneficiaries of underpayments due and
payable on behalf of deceased beneficiaries. As a result, SSA should pay $109,464 in
underpayments to these beneficiaries.

    Living Beneficiaries - SSA had not issued underpayments to 32 living beneficiaries
(that is, individuals who were previously entitled to child, student, or disability benefits)
in our sample. Adjustments to beneficiaries’ payments that result in underpayments
payable to terminated beneficiaries require separate manual actions to release the
underpayments. However, we found that SSA staff did not always take the necessary
action to release the underpayment. For the 32 underpayments, there was no evidence
SSA had attempted to release the underpayment or notify the beneficiary. As a result,
these beneficiaries did not receive $50,787 in underpayments to which they were
Page 4 - The Commissioner

entitled. SSA policy states that a living beneficiary does not need to request payment
of an underpayment due. The payment shall be issued in the beneficiary’s name to the
last address on record. 7

For example, a beneficiary was entitled to benefits for April 1986 through July 1998.
In February 1999, SSA retroactively increased the monthly benefits that were payable
to the beneficiary. As a result, the beneficiary was entitled to an additional $1,789.
However, SSA did not release the underpayment to the beneficiary at the last address
on record.

   Deceased Beneficiaries - SSA did not pay underpayments for 72 deceased
beneficiaries in our sample. Of these, 58 beneficiaries had a survivor beneficiary in
current pay status on the MBR, and 14 beneficiaries had a survivor beneficiary in
non-pay (that is, suspended or terminated) status. We reviewed case folders and
electronic documentation to determine whether SSA had attempted to contact the
surviving beneficiaries. We found that SSA did not notify the survivors of the
underpayments. As a result, the surviving beneficiaries were not aware of $58,677 in
underpayments to which they were entitled.

In addition, we found that SSA had disbursed lump-sum death payments for 38 of the
72 deceased beneficiaries, of which 9 were paid after the underpayment had been
recorded on the MBR. As a result, SSA could have released $6,796 in underpayments
to these individuals.

According to SSA policy, any underpayments due deceased beneficiaries shall be paid
in the following order of priority: (1) a spouse who was living with the beneficiary at the
time of death or a spouse entitled on the same earnings record at the time of death,
(2) a child entitled on the same earnings record, (3) a parent entitled on the same
earnings record of the deceased person, (4) a spouse not entitled on the same
earnings record, (5) a child not entitled on the same earnings record, (6) a parent not
                                                                                     8
entitled on the same earnings record, and (7) a legal representative of the estate. No
formal, written request is required for payment of an underpayment if there is sufficient
information to determine the identity and current address of all persons entitled to the
underpayment. 9

For example, a beneficiary entitled to retirement benefits died on May 15, 2000. A
check for the previous month was returned and processed by SSA on May 19, 2000.
Because the beneficiary was entitled to this check, an underpayment of $1,173 was
recorded on the MBR. On June 13, 2000, a lump-sum death payment was released to
the beneficiary’s spouse. In addition, the spouse applied for widow’s benefits on the

7
    SSA, POMS, GN 02301.020.2.
8
    SSA, POMS, GN 02301.030.
9
    SSA, POMS, GN 02301.050.
Page 5 - The Commissioner

deceased beneficiary’s account. However, SSA did not release the underpayment to
the spouse. In September 2007, we referred this case to SSA for corrective action.
As a result, SSA released the underpayment of $1,173 to the spouse in October 2007.

In September 2007, we referred all 58 underpayments due deceased beneficiaries with
a survivor beneficiary in current pay status to SSA for corrective action. We requested
that SSA determine the validity of the underpayment, locate any prior development, and
release the underpayment to the survivor, if necessary. As of January 2008, SSA had
taken action to pay 39 underpayments totaling $28,889.

Underpayments Need SSA Action to Locate Eligible Individuals

We found that SSA did not develop or retain sufficient evidence of development for
76 beneficiaries to locate individuals who may have been due underpayments. This
occurred, in part, because SSA had not (1) located better addresses for underpayment
checks that were returned to SSA and (2) notified eligible individuals in its payment
records of underpayments due and payable. As a result, SSA should pay $67,720 in
underpayments to these beneficiaries.

   Living Beneficiaries - SSA needs to locate 34 living beneficiaries (that is, individuals
who were previously entitled to child or student benefits) in our sample. We reviewed
the case folders and electronic documentation to determine whether SSA had properly
developed these cases to obtain a better address for the beneficiaries. However,
we could not locate sufficient evidence of development for 30 underpayments that
were returned for address. Although SSA initially developed the remaining four
underpayments, additional actions should have been taken to locate eligible individuals.
As a result, these individuals did not receive $28,633 in underpayments to which they
were entitled.

SSA policy states that an underpayment check returned for address should be
developed for a better address. If a better address cannot be located, the
underpayment will be posted on the beneficiary’s record. No further action will be
taken unless a request for payment is received. 10

In addition, we found that SSA had issued a replacement Social Security card to 18 of
the 34 beneficiaries after the underpayment was established. When individuals apply
for a replacement Social Security card, they are required to provide evidence of identity
and a correct, complete address. 11 As a result, SSA should have released $23,280 in
underpayments to these individuals.

For example, a child beneficiary was entitled to benefits until December 1991. Because
of an earnings recalculation, SSA adjusted the monthly benefits in August 2005. As a
10
     SSA, POMS, GN 02301.020.3.
11
     SSA, POMS, RM 00202.110 and RM 00203.200.
Page 6 - The Commissioner

result of the adjustment, SSA released a check for $522 because the child beneficiary
had been entitled to higher benefits. On September 8, 2005, the check was returned
for address and posted on the MBR as an underpayment due the beneficiary. The
beneficiary subsequently applied for and received a replacement Social Security card
in August 2006. Although the individual provided SSA with a mailing address for the
Social Security card, SSA did not release the underpayment to the beneficiary.

    Deceased Beneficiaries - SSA needs to identify individuals who may be entitled
to 42 underpayments due deceased beneficiaries. We reviewed case folders and
electronic documentation and could not locate sufficient evidence that development
occurred to locate potential recipients of the underpayment. As a result, eligible
individuals may not be aware of $39,087 in underpayments due them.

SSA policy states that field offices must determine the order of priority for potential
recipients eligible to receive underpayments. SSA may use direct contact to develop a
potential recipient and review the claims folder for leads to possible contacts. The
minimum development required to locate potential recipients is to send a letter to the
last address of record of all known individuals in the highest order of priority. 12 For the
42 underpayments, there was no evidence that SSA had sent the required letters.

UNDERPAYMENTS NOT PAYABLE

Our review disclosed that SSA should have removed $44,214 in underpayments for
49 terminated beneficiaries from the MBR. This consisted of

    $24,767 in underpayments that were improperly established for 36 beneficiaries and

    $19,447 in underpayments that were previously paid to 13 beneficiaries.

Underpayments Improperly Established

We found that SSA improperly established underpayments for 36 beneficiaries in our
sample. According to the MBR, a total of $24,767 in underpayments was owed to
these individuals. However, we found no evidence to validate the underpayments.
These underpayments should be removed to minimize the risk of improperly releasing
the payments to the beneficiaries or other individuals.

For example, a beneficiary entitled to retirement benefits died on July 6, 2003. On
August 1, 2003, SSA released the benefit check of $468 for the month of death. Title II
beneficiaries are not entitled to checks issued for the month of death or thereafter. 13
On August 6, 2003, the check was returned to SSA and improperly recorded on the
MBR as an underpayment of $468.
12
     SSA, POMS, GN 02301.060.
13
     SSA, POMS, GN 02408.610.
Page 7 - The Commissioner

Underpayments Paid But Not Removed

We found that SSA paid, but did not remove, underpayments for 13 beneficiaries in our
sample. SSA had paid $19,447 in underpayments owed to these individuals. However,
SSA did not remove the underpayments from the MBR after it made the payment.
Such actions are necessary to minimize the risk of improperly releasing the payments
to the beneficiaries or other individuals.

For example, a beneficiary entitled to retirement benefits died in May 1999. In
November 2000, SSA reviewed the claim and determined the beneficiary was entitled
to higher benefits. Because the beneficiary was deceased, SSA did not issue a check
and recorded the underpayment on the MBR. In March 2002, the beneficiary’s spouse
applied for the underpayment. SSA subsequently released the underpayment to
the spouse but did not remove it from the MBR. We referred this case to SSA for
corrective action. In January 2008, SSA removed the underpayment from the MBR.

CONCLUSION AND RECOMMENDATIONS

SSA needs to improve its controls and procedures to ensure underpayments are
appropriately paid on behalf of terminated beneficiaries. We found that SSA did not
take appropriate actions on 229 (76.3 percent) of the 300 underpayments in our
sample. This included 104 underpayments that were not paid to eligible beneficiaries,
76 underpayments with insufficient evidence of development, and 49 erroneous
underpayments. SSA took appropriate actions on the remaining 71 underpayments.

As a result, we estimate that SSA needs to (1) pay $358.7 million in underpayments
payable to 391,844 eligible beneficiaries and individuals and (2) remove $86.7 million
in erroneous underpayments on the MBR for 109,712 terminated beneficiaries (see
Appendix B). These payment errors occurred because SSA did not always locate
beneficiaries or eligible individuals, manually process underpayment alerts, retain
documentation of corrective actions taken, review its records for prior underpayments,
and ensure underpayments were valid before posting them to the MBR.

We recommend that SSA:

1. Pay underpayments to eligible beneficiaries and individuals identified by our audit.

2. Identify and take corrective action on the population of underpayments payable to
   eligible beneficiaries and other individuals.

3. Ensure employees retain sufficient evidence of developmental attempts to locate
   eligible beneficiaries and individuals who may be entitled to underpayments.
Page 8 - The Commissioner

4. Revise its underpayment procedures to instruct employees to review SSA’s records
   that may contain recent or better address information for eligible beneficiaries and
   individuals. For example, use address information for individuals who recently
   received a replacement Social Security card.

5. Remove improperly established underpayments from the MBR for the beneficiaries
   identified by our audit.

6. Improve controls to ensure underpayments are paid to eligible beneficiaries and
   individuals or are removed from the MBR, if appropriate. For example, develop
   periodic follow-up alerts to identify unpaid underpayments.

AGENCY COMMENTS
SSA agreed with Recommendations 1 through 3 and 5. For Recommendation 6, SSA
agreed to improve controls by issuing a reminder to staff rather than developing
periodic follow-up alerts. For Recommendation 4, SSA disagreed to revise its
underpayment procedures because of budgetary constraints and the legal sufficiency of
its efforts to obtain valid addresses to locate individuals. See Appendix C for the full
text of SSA’s comments.

OIG RESPONSE

We encourage SSA to pay underpayments to eligible beneficiaries and individuals by
reviewing its records for recent or better address information. Since individuals must
provide a current address to request a replacement Social Security card, we believe
SSA should use this information to pay underpayments at the same time. Had SSA
reviewed the MBR for the 18 beneficiaries who received a replacement Social Security
card in our sample, it could have released $23,280 in underpayments to these
individuals.




                                                  Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology

APPENDIX B – Sampling Methodology and Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                     Appendix A

Scope and Methodology
We obtained a data extract from the Social Security Administration’s (SSA)
Master Beneficiary Record (MBR). From this extract, we identified a population of
682,600 beneficiaries with a date of suspension or termination after January 1984 and
an underpayment over $100. We selected a random sample of 300 underpayments
from 3 strata (100 underpayments per stratum) consisting of (1) 85,964 living
individuals, (2) 49,581 deceased beneficiaries with another beneficiary on the MBR
in current pay status, and (3) 547,055 deceased beneficiaries without a beneficiary on
the MBR in current pay status.

To accomplish our objective, we

•   reviewed the applicable Federal laws, SSA’s Program Operations Manual System,
    and other policy memorandums;

•   interviewed SSA employees from the San Francisco Regional Office and the Offices
    of Finance, Public Service and Operations Support, and Income and Security
    Programs;

•   reviewed queries from SSA’s MBR, Supplemental Security Record, Payment History
    Update System, and Numident for each sample item;

•   obtained and reviewed paper and electronic folders, including the Paperless System
    and Online Retrieval System, to determine the nature and extent of actions taken by
    SSA; and

•   referred 58 underpayments due deceased beneficiaries with a survivor in current
    pay status to SSA’s Headquarters for corrective action.

We determined the computer-processed data from MBR were sufficiently reliable for
our intended use. Our work was conducted at the San Francisco Regional Office in
Richmond, California, between July 2007 and January 2008. The entity reviewed was
the Deputy Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.
                                                                     Appendix B

Sampling Methodology and Results
We obtained a data extract of underpayments over $100 from the Social Security
Administration’s (SSA) Master Beneficiary Record (MBR) for beneficiaries with a date
of suspension or termination between January 1984 and September 2006. From
this extract, we identified the following three strata: living individuals, deceased
beneficiaries with a survivor on the MBR in current pay status, and deceased
beneficiaries without a survivor on the MBR in current pay status.

We identified a population of 682,600 beneficiaries with an underpayment on the
MBR. We randomly selected 300 underpayments (100 from each strata) to determine
whether SSA had taken appropriate actions to pay the underpayment on behalf of
terminated beneficiaries.

Based on a random sample of 300 underpayments, we found that SSA did not pay
$177,184 in underpayments to 180 eligible beneficiaries or other individuals who were
entitled to the payments. We also found that SSA should have removed $44,214 in
underpayments for 49 terminated beneficiaries from its payment records.

Projecting our results to our population of 682,600 beneficiaries, we estimate that SSA
did not (1) pay $358.7 million in underpayments to 391,844 eligible beneficiaries or
other individuals and (2) remove $86.7 million in underpayments to 109,712 terminated
beneficiaries from its payment records. The following tables provide the details of our
sample results and statistical projections.

Table 1 – Underpayments Payable

                                      Number of                    Amount of
        Description                 Underpayments                Underpayments
 Sample Results                                       180                 $177,184
 Point Estimate                                   391,844              $358,661,394
 Lower Limit                                      346,276              $285,126,517
 Upper Limit                                      437,412              $432,196,271




                                          B-1
Table 2 – Underpayments Not Payable

                                        Number of                     Amount of
        Description                   Underpayments                 Underpayments
 Sample Results                                           49                   $44,214
 Point Estimate                                      109,712               $86,675,959
 Lower Limit                                          76,013               $50,761,923
 Upper Limit                                         143,410              $122,589,995

All statistical projections are reported at the 90-percent confidence level.




                                            B-2
                  Appendix C

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:      May 20, 2008                                                          Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster      /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Underpayments Payable on Behalf of
           Terminated Title II Beneficiaries" (A-09-07-17160)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "UNDERPAYMENTS PAYABLE ON BEHALF OF TERMINATED TITLE II
BENEFICIARIES" (A-09-07-17160)

Thank you for the opportunity to review and comment on the draft report. Our responses to the
specific recommendations are provided below:

Recommendation 1

Pay underpayments to eligible beneficiaries and individuals identified by our audit.

Response

We agree. Our target completion date is September 30, 2008.

Recommendation 2

Identify and take corrective action on the population of underpayments payable to eligible
beneficiaries and other individuals.

Response

We agree. However, this is a manual workload which cannot be automated, so implementation
of this recommendation will be dependent on available resources.

Recommendation 3

Ensure employees retain sufficient evidence of developmental attempts to locate eligible
beneficiaries and individuals who may be entitled to underpayments.

Response

We agree. We will issue a reminder to staff regarding proper documentation and correct
procedural policies by the end of June 2008.

Recommendation 4

Revise its underpayment procedures to instruct employees to review records that may contain
recent or better address information for eligible beneficiaries and individuals. For example, use
address information for individuals who recently received a replacement Social Security card.




                                               C-2
Response

We disagree. The Office of the General Counsel has determined that the procedures we
currently follow in an effort to obtain a valid address constitute a legally sufficient effort to
locate the individual. In addition, our current procedures are almost identical to those that we
successfully use in processing similar workloads. We believe that adding additional steps to the
current process would be inappropriate in light of existing budgetary constraints.

Recommendation 5

Remove improperly established underpayments from the Master Beneficiary Record (MBR) for
the beneficiaries identified by our audit.

Response

We agree. Our target completion date is September 30, 2008.

Recommendation 6

Improve controls to ensure underpayments are paid to eligible beneficiaries and individuals or
are removed from the MBR, if appropriate. For example, develop periodic follow-up alerts to
identify unpaid underpayments.

Response

We disagree with creating any additional follow-up alerts. An automated alert system is already
in place. We believe that the reminder to staff regarding documentation and required procedural
actions will improve the Agency’s accuracy in processing this workload.




                                               C-3
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments

In addition to those named above:

   Wilfred P.K. Wong, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-07-17160.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and
procedures, internal controls, and professional standards, the OIG also has a comprehensive Professional
Responsibility and Quality Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
